<html>
<title> - NEW ORLEANS: HOW THE CRESCENT CITY BECAME A SANCTUARY CITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










       NEW ORLEANS: HOW THE CRESCENT CITY BECAME A SANCTUARY CITY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2016

                               __________

                           Serial No. 114-96

                               __________

         Printed for the use of the Committee on the Judiciary


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://judiciary.house.gov

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-124 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






















                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                  RAUL LABRADOR, Idaho, Vice-Chairman

LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE KING, Iowa                     LUIS V. GUTIERREZ, Illinois
KEN BUCK, Colorado                   SHEILA JACKSON LEE, Texas
JOHN RATCLIFFE, Texas                PEDRO R. PIERLUISI, Puerto Rico
DAVE TROTT, Michigan

                     George Fishman, Chief Counsel

                      Tom Jawetz, Minority Counsel
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 27, 2016

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     4
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     6
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     8

                               WITNESSES

The Honorable Jeff Landry, Attorney General, Louisiana Department 
  of Justice
  Oral Testimony.................................................    10
  Prepared Statement.............................................    13
The Honorable Michael E. Horowitz, Inspector General, U.S. 
  Department of Justice
  Oral Testimony.................................................    16
  Prepared Statement.............................................    18
The Honorable Vanita Gupta, Principal Deputy Assistant Attorney 
  General, Civil Rights Division, U.S. Department of Justice
  Oral Testimony.................................................    22
  Prepared Statement.............................................    24
Zach Butterworth, Executive Counsel and Director of Federal 
  Affairs, Office of Mayor Mitchell J. Landrieu, City of New 
  Orleans
  Oral Testimony.................................................    30
  Prepared Statement........................................32<greek-l>
                       deg.OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Material submitted by the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
    Subcommittee on Immigration and Border Security. This material is 
    available at the Subcommittee and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105392
 
       NEW ORLEANS: HOW THE CRESCENT CITY BECAME A SANCTUARY CITY

                              ----------                              


                      TUESDAY, SEPTEMBER 27, 2016

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Trey 
Gowdy (Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Goodlatte, Labrador, Smith, 
King, Buck, Ratcliffe, Lofgren, Conyers, and Jackson Lee.
    Also Present: Representative Richmond.
    Staff Present: (Majority) George Fishman, Chief Counsel; 
Tanner Black, Clerk; and (Minority) Gary Merson, DHS Detailee.
    Mr. Gowdy. Good morning. Welcome. The Subcommittee on 
Immigration and Border Security will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time. We welcome everyone to 
today's hearing, entitled New Orleans: How the Crescent City 
Became a Sanctuary City.
    I will recognize myself for an opening statement and then 
my friend from California. I will introduce the panelists en 
banc and then recognize you individually for your opening 
statements.
    It is as close as I will ever come to being a judge, but 
there we have it.
    Time and time and time again, our Nation has witnessed the 
tragic consequences of this Administration's failure to enforce 
immigration law. Witnessing these tragedies is unsettling 
enough, but it pales in comparison to the grief and the anguish 
and the separation experienced by the families of those 
victimized.
    But, today, we are not here merely to discuss the failure 
to enforce the law. It is even more disconcerting than that. We 
are here today because the Department of Justice, the entity 
that is supposed to be the chief enforcer of the law, is aiding 
and abetting local governments in the failure to enforce the 
law. Once again, the temptation to make a political point has 
transcended the obligation to take care that the law be 
faithfully executed.
    Under current policy, the New Orleans Police Department 
prevents its officers and employees from communicating with 
U.S. Immigration and Customs Enforcement regarding the 
immigration status of an arrestee.
    In May of 2010, New Orleans Mayor Mitchell Landrieu sent a 
letter to then Attorney General Holder requesting DOJ 
``transform the New Orleans Police Department.'' Based on the 
Department of Justice report, current Labor Secretary, then 
Civil Rights Division head, Thomas Perez, filed a lawsuit 
against the city of New Orleans and the police department 
alleging various civil rights violations.
    On the basis of that lawsuit, the parties entered into a 
consent decree in 2012, which was approved by a Federal court 
in 2013. This consent decree stated the New Orleans Police 
Department officers, ``shall not take law enforcement action on 
the basis of actual or perceived immigration status, including 
the initiation of stops or other field contacts.''
    Now, let me read the salient part of that again: Police 
officers shall not take law enforcement action on the basis of 
actual immigration status.
    And on February 28, 2016, New Orleans Police Department 
issued a written policy, entitled ``Immigration Status,'' 
which, number one, prohibits officers from inquiring about an 
individual's immigration status; number two, prohibits officers 
from assisting or supporting ICE'S immigration enforcement; and 
number three, mandates any ICE request for support or 
assistance be declined.
    The New Orleans Police Department policy was not only 
vetted but, ``enthusiastically'' approved and supported by 
DOJ's Civil Rights Division. It was also reviewed and approved 
by DHS. The Department of Justice and Department of Homeland 
Security enthusiastically approve and support failure of law 
enforcement to take note of Federal immigration laws.
    In addition to being mind-numbingly antithetical to the 
faithful execution of the law, which is among the primary 
responsibilities of the executive branch, this New Orleans 
policy statement appears to violate section 8 U.S.C. code, 
1373, which provides no person or agency may prohibit or 
restrict a Federal, State, or local agency from sending, 
requesting, receiving, or exchanging information with ICE 
regarding unlawfully present aliens.
    On May 28 of this year, Chairman Goodlatte sent a letter to 
now Attorney General Lynch demanding that she explain DOJ's 
role in initiating litigation against the city of New Orleans 
and the resulting consent decree and provide the legal 
justification for approving the sanctuary policies enacted by 
the police department.
    On May 31 of this year, DOJ Inspector General Michael 
Horowitz issued a memo to the Assistant Attorney General for 
Justice Programs in response to a request to investigate 
allegations that over 140 State and local jurisdictions 
received DOJ grant funds, and they may be in violation of 
Federal law. Specifically, the inspector general was requested 
to investigate allegations of the 140 jurisdictions who are 
recipients of funding from the Department of Justice are in 
violation of title 8 U.S.C., section 1373.
    For those of you who may be struck by the duplicity of the 
chief Federal law enforcement entity providing grant money to 
State and municipalities who specifically fail to assist in the 
enforcement of Federal law, you are not alone. The inspector 
general found the laws and policies in several jurisdictions go 
beyond regulating responses to ICE detainers and also address, 
in some way, the sharing of information with Federal 
immigration authorities.
    After specifically reviewing the language of the New 
Orleans Police Department policy, the inspector general found, 
and I quote: In our view, subsection (a) of the NOPD policy 
would not serve as a `savings clause' in addressing section 
1373. Thus, unless the understanding of NOPD's employees is 
that they are not prohibited or restricted from sharing 
immigration status information with ICE, the policy would be 
inconsistent with Section 1373.''
    On July 7, DOJ's Office of Justice Programs determined 
section 1373 is, ``an applicable Federal law for purposes of 
determining statutory eligibility for relevant DOJ grant 
funding.'' Yet despite the requirement of section 1373, DOJ 
awarded the police department of New Orleans approximately $2 
million in grants for fiscal year 2015.
    That very same day, July 7, DOJ responded to Chairman 
Goodlatte's letter. They outlined the policy, but they failed 
to explain how the New Orleans' policies are lawful, which was 
a pretty important part of the letter in the first place.
    Then, last Friday--last Friday--September 23, just a few 
days after our hearing was announced, we received a letter from 
the Department of Justice claiming the revised policy the New 
Orleans Police Department had issued did comply with 1373. 
However, this revised policy makes no mention of part B of 
section 1373. And in addition, DOJ has not provided this 
Committee with any indication of how officers will be trained 
to implement this revised policy or how seemingly minor changes 
to the text will ensure New Orleans will not be operating as a 
sanctuary city, which leads us to why we are here today.
    Not only does this place ICE agents and officers at greater 
risk when they are forced to arrest criminal aliens who are no 
longer in a secure jail facility, but instead, in public 
places, where they can more readily escape or access a weapon, 
but it also prevents officers from accomplishing their ultimate 
goal, which is public safety. We already know there are cities 
more interested in providing sanctuary for criminals than safe 
haven for our very own citizens. We know there are cities who 
clamor for the Federal Government to assert itself into matters 
that are not inherently Federal in nature but refuse to assist 
Federal law enforcement in matters that actually are inherently 
Federal.
    And to put this in terms that almost anyone can understand, 
State and local law enforcement can be trusted to provide 
security for Members of Congress both here and in our home 
districts. They can be entrusted to enforce murder laws, child 
sex laws, kidnapping laws. They can participate in Federal task 
forces on terrorism and narcotics trafficking, but God forbid 
they lift a finger to assist in the enforcement of Federal 
immigration laws.
    But for the Department of Justice to go as far to seek a 
consent decree to actually inhibit the ability of the Federal 
Government to enforce Federal law is stunning, even for a 
Department of Justice that has, unfortunately, become 
increasingly politicized. The consent decree can be interpreted 
to require New Orleans adopt policies that require its officers 
to actually violate Federal law.
    Let me repeat that one more time: This Administration's 
Department of Justice is actually requiring New Orleans police 
officers to break the law in an effort to further their 
political agenda.
    We have had multiple hearings on those that have been 
victimized by sanctuary cities. We have heard from their 
families. We are well aware of the tragic consequences. This is 
not a theoretical conversation in some law school conference 
room. This is real life with real victims and real grieving 
family members. Illegal immigration is not a victimless crime.
    Once you weaken the law, you weaken it forever, and once 
you put politics above the blind application of the law, it is 
done forever. And once you decide State and local law 
enforcement are good enough to protect us when we are back home 
in our districts but not good enough to be trusted to assist in 
the execution of the law, good luck in reversing that.
    With that, I would recognize the gentlelady from 
California.
    Ms. Lofgren. Thank you, Mr. Chairman. Today, we are again 
devoting time to what the majority calls sanctuary cities. It 
is ironic that my Republican colleagues today argue against 
local policies in favor of a top-down mandate from Washington. 
It is a question why the majority believes that it knows better 
than several hundred State and local police departments across 
the country that have embraced community trust policing 
policies precisely because they believe that approach makes us 
all safer. And for the Republicans to question the need for 
good community policing approaches at this moment, when reports 
of tragic police shootings dominate the news, seems 
nonsensical.
    The fact is we could have addressed the Republican concerns 
with sanctuary cities and many other immigration matters if we 
had devoted time spent on polemics and diversions instead of to 
fixing our broken immigration system through comprehensive 
reform.
    When it comes to so-called sanctuary cities, this is what 
Richard Biehl, the police chief of Dayton, Ohio, not a place 
many think of as a sanctuary city, said over a year ago, when 
he testified before the Judiciary Committee, ``These policies 
allow us to focus our limited resources on our primary mission, 
crime solving and community safety. They also send a message 
that victims of violent crime, human trafficking, and other 
crime should never be afraid to reach out for help due to fear 
of the immigration consequences.''
    I note that in the Department of Justice report 
investigating the New Orleans Police Department dated March 16, 
2011, it said, ``Minority groups nearly uniformly said that the 
police rarely reach out to them for any purpose.'' One member 
of a Vietnamese community organization reported that, ``A lot 
of young Vietnamese people who get shot in this community, we 
know who shot them, but the New Orleans police won't do 
anything. They don't talk to us. They don't build community 
relationships.''
    I agree with Chief Biehl, and I know from my experience as 
a county supervisor and Member of Congress that law enforcement 
and local officials can work cooperatively with community 
groups and the Federal Government to come to a consensus 
position that preserves community policing and prioritizes 
serious criminals for immigration enforcement and removal.
    I also agree with Secretary Johnson's prior statements to 
this Committee that imposing Federal mandates on local law 
enforcement by withholding funds would be a huge setback in 
efforts to improve the relationship between DHS, State, and 
local law enforcement, and communities around the country.
    With respect to New Orleans, the context, like most things 
in the Big Easy, is a little bit different. Upon taking office, 
Mayor Landrieu requested the Department of Justice Civil Rights 
Division engage in a review of the police department. He 
recognized that a history of civil rights violations by the New 
Orleans Police Department had undermined trust with the 
community and reform was necessary.
    Of course, the vast majority of New Orleans Police 
Department officers honestly and conscientiously performed and 
continued to perform their duties. But I hope that my 
Republican colleagues are not here to defend the actions of a 
few that caused such great harm over the years in New Orleans.
    The history of abuse by the department has been well 
documented. The facts are incontrovertible. Under Mayor 
Landrieu and Superintendent of Police Michael Harrison with the 
support of the Department of Justice and working with the local 
community, New Orleans entered into a consent decree and has 
adopted a bias-free policing policy. The policy ensures that 
immigrants can report crimes and serve as witnesses without 
retribution. It also makes clear that information regarding the 
citizenship and immigration status will be shared with Federal 
immigration authorities when required by Federal or State law.
    Out of an abundance of caution, New Orleans has been 
working with the Justice Department to revise this language to 
guarantee its compliance with applicable Federal laws. We now 
have this revised policy in place. These policies, while not 
self-identified as sanctuary city polices, are examples of 
smart, effective community policing tailored by and for the 
communities in New Orleans.
    Many are hopeful that this hard work, done collaboratively 
with the department and community groups, sets New Orleans on a 
path to safer streets and better police relations with citizens 
of all backgrounds. But here comes the Republican Congress to 
the rescue. They are questioning the legality of a policy that 
has already been revised to ensure that it is in compliance 
with Federal law.
    Members who have had nothing to do with New Orleans are 
here to tell the local police and civil leaders how to do their 
job, even though the New Orleans Police Department says the 
Republican approach will undermine public safety and make their 
jobs harder. They are pursuing a line of argument that 
jeopardizes critical funding, which supports public safety, 
community policing, and crimes victims services.
    With all due respect, I say to my colleagues on the other 
side of the aisle: let's let local law enforcement and the 
elected officials in city government do their job, and we 
should focus on ours. In this Congress, we have gone to the 
floor to vote on bills to deport DREAMers, to deport the 
parents of U.S. citizens, to deport vulnerable children fleeing 
persecution and sex trafficking, and to halt refugee processing 
amidst the civil war in Syria that has displaced millions.
    Thankfully, these proposals have ultimately gone nowhere, 
but we had the votes to pass comprehensive immigration in the 
last Congress. The bipartisan bill passed in 2013 would not 
only have grown our economy, help to shrink our budget deficit; 
it would have made our communities safer. Bringing people out 
of shadows and putting them on a path to citizenship would have 
further enhanced public safety.
    If the Republican leadership had given comprehensive 
immigration reform the same opportunity for a vote that all of 
these other measures have received, it would be the law today. 
So let's do the people's business, work to pass immigration 
reform, and I thank the Chairman.
    I yield back the balance of my time.
    Mr. Gowdy. The gentlelady yields back.
    The Chair will now recognize the gentleman from Virginia, 
the Chairman of the full Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman, and thank you for 
holding this important hearing.
    Sanctuary cities refuse to cooperate with U.S. Immigration 
and Customs Enforcement in its enforcement of Federal 
immigration laws. The proliferation of sanctuary cities has 
resulted in thousands of criminal aliens being released into 
our neighborhoods to commit more crimes. Sanctuary cities 
violate Federal law. Two decades ago, Congress enacted a 
provision, title 8, section 1373, designed specifically to 
prevent jurisdictions from enacting policies that prohibit 
their employees from sharing information with ICE about 
illegally present or criminal aliens.
    There are more than 300 sanctuary jurisdictions in the 
United States. One of these is the city of New Orleans. In 
2010, the current major of New Orleans invited the Department 
of Justice to review the policies of the New Orleans Police 
Department, apparently in part to transform New Orleans into a 
sanctuary city. Former Attorney General Eric Holder, former 
Assistant Attorney General for the Civil Rights Division Thomas 
Perez, now Secretary of Labor, and the mayor appear to have 
colluded to have the Department of Justice file a lawsuit 
against the city, and then have DOJ and the city enter into a 
settlement agreement or a consent decree that would forbid the 
New Orleans Police Department from cooperating with ICE.
    The resulting consent decree actually required the New 
Orleans Police Department to develop a plan that prohibited 
officers from taking any enforcement action based on an 
individual's immigration status. In February of this year, 
pursuant to the consent decree, the New Orleans Police 
Department issued a policy prohibiting officers from inquiring 
about an individual's immigration status.
    More troubling, it generally prohibited officers from 
assisting or supporting ICE'S immigration enforcement, and it 
required officers to decline all ICE requests for support or 
assistance. Thus, New Orleans could claim that DOJ's heavy hand 
forced it to become a sanctuary city and endanger its residents 
when in fact it was a willing participant.
    The consent decree was a shocking action on the part of the 
Department of Justice. The chief law enforcement agency of the 
Federal Government acted to impede the enforcement of Federal 
law. In addition, the policy appears to be in direct violation 
of section 1373. Yet it was--excuse me. Yet it was reviewed and 
approved in advance by the Department of Justice Civil Rights 
Division. This appears to be another example of the current 
DOJ's cavalier disregard for the Constitution and the law.
    Chairman Gowdy and I sent a letter to the attorney general 
in May asking that she explain how the New Orleans Police 
Department policy complies with section 1373 and requesting 
that she provide communications with New Orleans concerning the 
development of the policy. DOJ's response was almost completely 
nonresponsive.
    The DOJ inspector general issued a report in May that 
expressed concern that ambiguous language in some sanctuary 
policies may cause local officers to comply with such policies 
in a way that would violate section 1373. The inspector general 
noted that, ``unless the understanding of New Orleans Police 
Department's employees is that they are not prohibited or 
restricted from sharing immigration status with ICE, the policy 
would be inconsistent with section 1373.'' I have asked for the 
training materials that the New Orleans Police Department gave 
to its officers to ensure their understanding of section 1373. 
I have been provided with nothing.
    This leads to a troubling possibility that, through a lack 
of training, the New Orleans Police Department has, in 
practice, violated section 1373.
    Finally, just 4 days before this hearing, after this 
Committee's persistent efforts to expose this disturbing matter 
and demand action, the Department of Justice informed the 
Committee that the New Orleans Police Department had revised 
its sanctuary policy.
    Specifically, the NOPD policy now states that it is to be 
construed in accordance with section 1373(a). On that basis, 
DOJ has represented to the Federal court and this Committee 
that the policy now complies with section 1373.
    Unfortunately, this coordinated effort by DOJ and the city 
of New Orleans to preserve the patina of legality of their 
consent decree clearly fails. Section 1373(b) prohibits 
jurisdictions from restricting their employees from requesting 
information from ICE, maintaining such information, and 
exchanging information with other agencies. Nowhere does the 
revised policy require compliance with this subsection.
    A NOPD officer that arrests an individual who is believed 
to be illegally present is most likely going to contact ICE to 
request information regarding that individual's immigration 
status. However, the revised NOPD policy expressly prohibits 
the New Orleans Police Department officers from making 
inquiries into an individual's immigration status. DOJ and NOPD 
have provided no evidence that NOPD, in practice, has complied 
with section 1373.
    They have provided no training material showing that 
officers have or will be properly trained regarding compliance 
with section 1373.
    The New Orleans Police Department received over $2 million 
in law enforcement grants from the Department of Justice in 
fiscal year 2015. As Attorney General Lynch has essentially 
admitted to John Culberson, Chairman of House Appropriation 
Committee's Subcommittee with jurisdiction over the Department 
of Justice, if the New Orleans Police Department is in 
violation of section 1373, it would be disqualified from 
receiving these grants.
    Yet the Department of Justice has made no effort to cut off 
grants to New Orleans. Even aside from the likely violation of 
Federal law, the Department of Justice's actions in this case 
show that the protection of our constituents and the 
enforcement of Federal law no longer seem to be priorities of 
the Department. In fact, the Department of Justice seems to 
view them as roadblocks impeding its chosen policy preferences.
    I want to thank our witnesses for appearing today, and I 
look forward to their testimony and to learning more about how 
this new New Orleans Police Department policy, including why it 
still prohibits compliance with section 1373(b).
    Thank you, Mr. Chairman.
    Mr. Gowdy. The gentleman from Virginia yields back.
    The Chair will now recognize the gentleman from Michigan, 
the Ranking Member of the full Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy, and I join in 
welcoming all of our witnesses. I would like to preface my 
remarks regarding today's hearing, which deals with community 
policing policies by observing that our Nation's conscience 
continue to be rocked by a series of tragic events involving 
law enforcement and the loss of too many Black lives. In our 
courtrooms, in our streets and on television, we confront a 
never-ending body count.
    Earlier this summer, my congressional colleagues and I 
staged an unprecedented sit-in just to try to get a vote on 
commonsense gun legislation. In this Committee, Chairman 
Goodlatte and I formed a bipartisan policing strategies working 
group to begin examining how we can best ensure that Congress 
takes responsibility for the conversation about race and 
policing in America.
    I believe this working group is one of the best examples of 
how we can come together at a time when the Nation needs our 
leadership to reduce the levels of violence in our communities. 
And just this past week, I joined my Congressional Black Caucus 
colleagues in protest of yet another series of senseless 
killings of Black men and Black children by police in 
Cleveland, Tulsa, and Charlotte.
    When you add to this volatile mix the attacks on the police 
officers in Baton Rouge and Dallas, the Nation risks being 
forced into a battle of whose lives matter most. We mourn the 
loss of all of these lives and want to see an end to this 
violence across the United States, including in the iconic 
American city of New Orleans.
    To achieve this, first, we need to ensure police 
accountability, prevent violent attacks on law enforcement, and 
improve the relationship between police officers and the 
communities that they are sworn to protect and serve. Community 
trust police--community trust policies are integral to smart 
law enforcement for diverse communities, including those with 
immigration populations like New Orleans and my district in 
Michigan.
    Secondly, studies show that crime rates actually decrease 
after localities adopt community trust policies. Further, these 
studies find that strong-arm policies, such as Secure 
Communities, fail to lower crime rates. Instead, they make 
communities less safe because residents become more fearful 
and, therefore, less likely to report criminal activity or 
cooperate with investigations.
    We share the common goal of community safety. To suggest 
that local leaders and law enforcement officials are 
purposefully pursuing policies that make their communities less 
safe is simply false and offensive.
    Finally, if we are looking for real solutions, we should be 
undertaking comprehensive immigration reform. Unfortunately, 
this hearing, which pejoratively refers to New Orleans' 
community trust policy as a sanctuary city policy is not about 
comprehensive immigration reform. It is about anti-immigrant 
politics and fearmongering.
    An immigration reform bill, such as the measure that passed 
the Senate in 2013 or the legislation that had 201 House 
cosponsors in the last Congress, would allow law-abiding 
immigrants to come out of the shadows and get right with the 
law, and it would enable immigration customs enforcement to 
focus its resources on deporting the worst elements. This kind 
of solution would help ensure that the city of New Orleans and 
all communities, citizens and immigrants alike, as well as the 
brave men and women serving in law enforcement are protected 
from harm.
    And in closing, I thank the Chairman, and I look forward to 
a meaningful discussion in this hearing from our witnesses. 
Thank you, Mr. Chairman.
    Mr. Gowdy. The gentleman from Michigan yields back.
    We have a very distinguished panel of witnesses, and I will 
begin by swearing them in. If you would, please rise.
    Do you swear the testimony you are about to give is the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    May the record reflect all the witnesses answered in the 
affirmative. You may sit down.
    We will introduce you en banc, and then I will recognize 
you individually for your opening statements. First, it is my 
pleasure to welcome the Honorable Jeff Landry, who is the 
attorney general for the State of Louisiana. Attorney General 
Landry joined the Louisiana National Guard in high school, 
taking part in Operation Desert Storm, and served as both a 
police officer and a sheriff's deputy. General Landry ran 
successfully for Congress in 2010 and served in the 112th 
Congress. He became Louisiana's attorney general on January 11, 
2016. He has a bachelor's of science degree from the University 
of Southwestern Louisiana, which is now the University of 
Louisiana at Lafayette, and a law degree from Loyola University 
New Orleans' law school.
    Welcome, Attorney General Landry.
    The Honorable Michael Horowitz is the inspector general for 
the Department of Justice. He worked as an assistant U.S. 
attorney for the Southern District of New York before joining 
DOJ in 1999 where he served as Deputy Assistant Attorney 
General and chief of staff in the Criminal Division of Main 
Justice from 1999 to 2002. General Horowitz also served as 
Commissioner of the U.S. Sentencing Commission. He was sworn 
into his current position on April 16, 2012. He graduated with 
highest honors from Brandeis University and earned his law 
degree with high honors from Harvard Law School.
    Welcome, Inspector General Horowitz.
    Next is my pleasure to introduce Ms. Vanita Gupta. She is 
the Principal Deputy Assistant Attorney General and the head of 
the Civil Rights Division at the Department of Justice. Ms. 
Gupta worked as a civil rights attorney and deputy director of 
the American Civil Liberties Union. She became head of the 
Civil Rights Division in 2014. She earned her undergraduate 
degree with high honors from the Yale University and a law 
degree from the New York University School of Law.
    Welcome, Madam Attorney General.
    And Mr. Zach Butterworth is the director of Federal Affairs 
for the city of New Orleans, representing Mayor Mitchell 
Landrieu in the New Orleans Police Department, the 
international airport, and the regional transit authority, and 
water infrastructure system. Mr. Butterworth served as the 
legislative director and counsel to Senator Mary Landrieu and 
as senior counsel to our friend, Congressman Cedric Richmond. 
Mr. Butterworth graduated from LSU and Loyola University New 
Orleans College of Law. Welcome to each of you.
    Attorney General Landry, you are recognized for your 5-
minute opening.

   TESTIMONY OF THE HONORABLE JEFF LANDRY, ATTORNEY GENERAL, 
                LOUISIANA DEPARTMENT OF JUSTICE

    Mr. Landry. Thank you, Mr. Chairman, Madam Ranking Member, 
for the opportunity to address this Committee on one aspect of 
a public crisis of our time, and that is illegal immigration. 
As Louisiana's chief legal officer, I am committed to ensuring 
the rule of law is followed by everyone.
    Like each of you, I took an oath to defend the 
Constitution, and I intend to uphold it. Unfortunately, 
sanctuary city policies undermine our justice system and our 
national security. As I am sure you agree, government's most 
important function is for providing and securing the safety of 
her citizens.
    Sanctuary policies not only jeopardize the ability to 
protect our citizens, but they also allow illegals to commit 
crimes, then roam free in our communities. It has been reported 
that cities with sanctuary policies have seen an increase in 
crime. One sanctuary city, Los Angeles, saw all crimes rise in 
2015. Violent crimes was up 20 percent; homicides up 10 
percent; shootings victims up almost 13 percent; rapes up 
almost 9 percent; robberies up 12 percent; and aggravated 
assaults up 27 percent.
    What is more, ICE recently reviewed that over 1,800 
illegals released by sanctuary cities were later rearrested 
almost 4,300 times, committing almost 7,500 new crimes, 
including rape and child sex abuse.
    Sanctuary policies encourage further illegal immigration 
and waste much-needed public resources as they force the 
Federal Government to find and arrest deportable criminals 
already taken into custody by local law enforcement.
    This spring, I advocated for legislation in Louisiana that 
would have increased public safety by incentivizing the 
government--government agencies to follow the law. Because of 
this effort, Lafayette Parish is no longer a sanctuary city 
parish. As of late Friday, the city of New Orleans has changed 
its policy allowing NOPD to now allegedly cooperate with 
Federal authorities.
    By shining a bright light on this dangerous procedure, this 
Committee has already provided a catalyst for change. Let me be 
clear: I am not trying to become the immigration police. 
Between catching child predators, rooting out public 
corruption, and fighting Federal overreach, I have more than 
enough to do. But I am here today to push for a change because 
the Administration has not only decided not to enforce the law, 
but they also have used their power to coerce local 
jurisdictions in my State to institute sanctuary city policies.
    In the great city of New Orleans, the Justice Department 
entered into a consent decree with the city that mandated that 
its police officers not make inquiries into an individual's 
immigration status or assist ICE unless there is a warrant or 
court order issued.
    As a former police officer and sheriff's deputy, I find it 
unconscionable that criminals who are in our country illegally 
cannot be held unless a--until a warrant or a court order is 
issued. After all, American citizens can be stopped on 
reasonable suspicion, arrested on probable cause, and may not 
see a judge for 2 to 3 days. Illegal immigrants should not be 
given a greater right than we afford our own citizens.
    After hearing testimony in the statehouse in Louisiana that 
the Department of Justice, the U.S. Department of Justice, 
mandated that the city of New Orleans adopt a sanctuary city 
policy as part of the consent decree, I wrote a letter to 
Attorney General Loretta Lynch asking for clarification. The 
response that this Committee and I received was a lengthy non-
answer that we have unfortunately come to expect from the 
Administration.
    However, a recent report by the DOJ's own inspector general 
confirmed that sanctuary jurisdictions violate Federal law by 
prohibiting communication with ICE officials. Furthermore, it 
explicitly declared that local jurisdictions comply with all 
Federal laws in order to receive Federal grants. All the while, 
the Administration has been rewarding sanctuary cities with 
hundreds of millions of dollars of Federal tax money.
    I was criticized by the Governor of Louisiana and the mayor 
for allegedly jeopardizing State funding with the legislation 
that I supported. The truth is that the U.S. DOJ's mandated 
policy upon the city is what is jeopardizing their funding. 
Besides fiscal and legal issues, there are homeland security 
issues. Due to sanctuary city policies, foreign terrorists, 
such as members of ICE, have the ability to travel to a 
sanctuary city, commit a minor offense, and remain protected 
from being identified. And in the current environment, why 
would we discourage cooperation between State and local law 
enforcement?
    Reducing crime and saving lives are not a partisan issue. 
In fact, politics never came up when I met with the family of 
St. John the Baptist Parish fire chief, Spencer Chauvin's 
family. Chief Chauvin was killed last month in the greater New 
Orleans area by an illegal alien with a lengthy criminal 
background who was in our country. The questions were not 
Republican or Democrat, conservative or liberal. This grieving 
family simply asked one thing that this Committee, Congress, 
and the Administration should absolutely answer: Why do we have 
to wait for illegals to victimize our citizens in a violent 
manner before deporting them?
    And I pose to you an even humbler one: Why cannot the 
State--why cannot State and Federal law enforcement work 
collaboratively to prevent these types of actions?
    Honorable Members, we need sound immigration policy that 
begins with securing the border and enforcing the immigration 
laws already on the books. Congress must act to support those 
of us at the State and local level who have been fighting these 
reckless sanctuary city policies.
    I am proud that our efforts exposing the actions of DOJ and 
the city of New Orleans have resulted in substantive changes 
with the city's policy. Because of the efforts we made in 
Louisiana, our State no longer has any jurisdictions 
prohibiting them from communicating with Federal immigration 
authorities. Today, Louisiana is safer because of these 
changes. Thank you very much, and I look forward to answering 
any of your questions.
    [The prepared statement of Mr. Landry follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                               __________
                               
                               
                               
    Mr. Gowdy. Thank you, Mr. Attorney General.
    Inspector General Horowitz.

   TESTIMONY OF THE HONORABLE MICHAEL E. HOROWITZ, INSPECTOR 
              GENERAL, U.S. DEPARTMENT OF JUSTICE

    Mr. Horowitz. Mr. Chairman, Ranking Members, Members of the 
Committee, thank you for inviting me to testify before you 
today.
    Earlier this year, the Department advised the Office of 
Inspector General that it had received information indicating 
that jurisdictions receiving Department grant funds may be in 
violation of title 8 United States Code, section 1373. The 
Department provided the OIG with grant information related to 
more than 140 State and local jurisdictions and asked our 
office to review the allegations.
    We considered the matter as requested and subsequently 
provided the Department with a memorandum advising it of the 
steps we had taken and summarizing the information we had 
learned. We did so expeditiously because, in part, the 
Department's grant process was ongoing, and we found that the 
Department had not provided grant recipients with clear 
guidance as to whether section 1373 was an applicable Federal 
law with which recipients were expected to comply in order to 
satisfy relevant grant rules and regulations.
    Based on a large number of jurisdictions cited by the 
Department and the need for us to review this expeditiously, we 
judgmentally selected 10 State, and local jurisdictions for 
further review. For each jurisdiction, we researched the local 
laws and policies that govern their interactions with U.S. 
Immigrations and Customs enforcement and interviewed ICE 
officials to gain their perspective on ICE's relationship with 
the jurisdictions.
    Based on our research, we found that the laws and policies 
of several jurisdictions went beyond placing limitations on 
complying with civil immigration detainer requests and 
potentially limited the sharing of immigration status 
information with Federal immigration authorities.
    We also found that the laws and policies of some 
jurisdictions in our sample group that address the handling of 
ICE detainer requests might have had a broader practical impact 
on the level of cooperation with ICE and therefore might be 
inconsistent with the intent of section 1373. ICE officials 
expressed a similar concern to us.
    With regard to the New Orleans Police Department, we noted 
that its then existing policy broadly prohibited officers from 
disclosing a person's citizenship and immigration status 
information with an exception where the disclosure was 
``required by Federal or State law.''
    This savings clause language appeared to be potentially 
inconsistent with the plain language of section 1373 because, 
for example, section 1373 doesn't ``require'' cooperation with 
ICE, but rather prevents jurisdictions from prohibiting or 
restricting employees from providing immigration status to ICE 
upon request.
    In our memorandum, we advise the Department of several 
steps it could consider taking to the extent its focus was to 
ensure grant recipient compliance with section 1373. Among the 
steps were to provide clear guidance to grant recipients 
regarding whether they would be expected to comply with section 
1373 in order to satisfy relevant grant rules and regulations, 
to require grant applicants to provide certifications and 
supporting documentation regarding compliance with section 
1373, and to consult with the Department's law enforcement 
counterparts at ICE and other agencies regarding such issues 
prior to grant awards.
    We believe the steps we outlined would provide the 
Department with assurances that a grant applicant was 
cooperating--was operating in compliance with section 1373 and 
also would be helpful should the Department later refer alleged 
violations of section 1373 by grant recipients to the OIG for 
our investigation.
    This concludes my statement, and I will be pleased to 
answer any questions that the Committee may have.
    [The prepared statement of Mr. Horowitz follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
                               __________
                               
                               
    Mr. Gowdy. Thank you, Mr. Inspector General.
    Madam Attorney General.

   TESTIMONY OF THE HONORABLE VANITA GUPTA, PRINCIPAL DEPUTY 
    ASSISTANT ATTORNEY GENERAL, CIVIL RIGHTS DIVISION, U.S. 
                     DEPARTMENT OF JUSTICE

    Ms. Gupta. Thank you. Good morning. Good morning, Chairman 
Goodlatte, Chairman Gowdy, Ranking Member Zoe Lofgren, and 
distinguished members of Subcommittee. Thank you for the 
opportunity to speak before you today about the Justice 
Department's work to advance public safety and promote 
effective, constitutional, and community-oriented policing.
    Around the country, State and local law enforcement serve 
as the first line of defense for public safety. They keep our 
families safe from harm, they fight crime on our streets, and 
as recent events painfully remind us, they do this demanding, 
often dangerous work, at great sacrifice and great personal 
risk.
    So let us make no mistake: the vast majority of men and 
women who wear the badge serve our communities with 
professionalism, with integrity, and with distinction. They 
deserve our deepest respect and our steadfast support. Yet when 
police departments engage in a pattern or practice of 
unconstitutional policing, their actions can severely erode 
community trust and profoundly undermine public safety.
    In 1994, Congress charged the Justice Department with a 
responsibility to investigate law enforcement agencies for a 
pattern or practice of conduct that violates Federal law, and 
when necessary, to develop remedies to eliminate such 
misconduct.
    Today, I will discuss our work with the New Orleans Police 
Department by explaining the problems we found and the reforms 
that the city agreed to implement. In May 2010, New Orleans 
Mayor Mitch Landrieu requested that the Justice Department 
conduct an independent investigation of NOPD's systems and 
operations. In a letter, Mayor Landrieu stated that he 
inherited a police force described by many as one of the worst 
police departments in the country.
    Following our fact-driven and comprehensive investigation, 
we published our findings in a detailed 141-page letter. Among 
other violations, we found evidence that NOPD was unfairly 
enforcing the law or failing to enforce the law based on race, 
ethnicity, national origin, and other protected 
characteristics. These discriminatory policing practices eroded 
trust. Crime victims and witnesses, especially in Latino 
communities, felt afraid to share information with the police. 
This hurt public safety.
    In the context of reporting crime, one community member 
told us, ``Out of fear, we stay quiet.'' I know many law 
enforcement officials and leaders around the country understand 
these concerns and recognize the very critical and important 
link between community trust and public safety.
    In 2012, New Orleans and the Justice Department entered 
into a comprehensive negotiated consent decree approved by the 
Federal court in 2013 to resolve our allegations of unlawful 
police misconduct. The decree requires NOPD to make important 
changes in policies and practices related to the use of force, 
stops, searches, and arrests, the prevention of discriminatory 
policing, and officer training oversight and supervision.
    In February of this year, after seeking input from the New 
Orleans community, the court appointed monitor, the Federal 
district court, as well as the U.S. Departments of Justice and 
Homeland Security, NOPD issued a new policy to help officers 
provide services effectively and fairly to all people in the 
city, regardless of their immigration status or the color of 
their skin.
    Last week, NOPD updated its policy to clarify that it 
complies with a specific Federal statute, 8 U.S.C., section 
1373, to ensure that officers understand that they can send and 
receive information regarding an individual's immigration 
status and to most effectively advance nondiscriminatory 
policing. The policy also states that NOPD officers can take 
law enforcement action and assist in immigration enforcement 
when there is a threat to public safety, to execute criminal 
warrants, and to safely execute a court order.
    By facilitating a culture of trust and cooperation, the 
policy will help local and Federal law enforcement protect 
public safety. The hardworking men and women of the New Orleans 
Police Department continue to do precisely that by fighting 
crime in partnering with Federal law enforcement to identify 
and prosecute people who have committed violent crimes.
    We strongly believe that this policy will help restore 
trust with crime victims and witnesses, enhance the sharing of 
information, and, in so doing, make the entire New Orleans 
community safer. In New Orleans and in any city the Justice 
Department works with, real and lasting reform can't happen 
overnight, and we recognize the vital role of sustained 
collaboration with the entire community, from police officers 
to public officials and to community members.
    And I want to commend officials from the city and the NOPD 
for their partnership throughout this process. And I view our 
dialogue today here as an important part of that same process 
about how police reform can help make the residents and 
officers of New Orleans safer for generations to come. I look 
forward to your questions.
    [The prepared statement of Ms. Gupta follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                               __________
                               
                               
    Mr. Gowdy. Thank you, Madam Attorney General.
    Mr. Butterworth.

 TESTIMONY OF ZACH BUTTERWORTH, EXECUTIVE COUNSEL AND DIRECTOR 
OF FEDERAL AFFAIRS, OFFICE OF MAYOR MITCHELL J. LANDRIEU, CITY 
                         OF NEW ORLEANS

    Mr. Butterworth. Chairman Gowdy, Chairman Goodlatte, 
Ranking Member Lofgren, and Congressmen, my name is Zach 
Butterworth. I am the executive counsel and director of Federal 
relations for the city of New Orleans. Thank you for giving me 
the opportunity to provide testimony before the Committee 
today.
    Ms. Gupta. Hold on. Now it is on.
    Mr. Butterworth. Okay. Thank you, Vanita.
    Ms. Gupta. Sorry about that.
    Mr. Butterworth. Before I begin, I would like to thank the 
panel for their support that Congress has provided to New 
Orleans since Hurricane Katrina 11 years ago. Our recovery 
would certainly not be where it is today without that support.
    I would also like to thank you for your strong support of 
the victims of the flooding of Baton Rouge. I have seen a 
magnitude of that flood, and those people will certainly need 
your help for years to come.
    I want to emphasize three main points from my written 
testimony and then try to give the panel a little bit of 
context for how we got here today. First, public safety is a 
top priority in New Orleans. Legal or undocumented, whoever 
commits a crime in New Orleans will be arrested. Our record 
shows that every day the New Orleans Police Department takes 
violent criminals off the streets.
    In 2012, Mayor Landrieu formed the Multi-Agency Gang Unit. 
That unit alone has arrested 100 of the most violent criminals 
in New Orleans. Murder is down in New Orleans, 18 percent from 
2011. At the same time, murder was up 4 percent nationwide. 
Violent crime is down in New Orleans, 60 percent dating back to 
its highs in 1994.
    My second point is that New Orleans' policy does not make 
us a sanctuary city. We are trying to follow Federal law. We 
have been trying to follow Federal law from day 1. It should go 
without saying that any police department--any policy a police 
department adopts follows State, local, and Federal law.
    So the review process here. The NOPD, every policy is 
reviewed by the Department of Justice, a Federal monitor, who 
is appointed by a Federal judge, and the NOPD.
    In drafting our policy, we asked the experts. Officials 
from ICE were brought in and reviewed best practices from 
around the country. For instance, the Major Cities Chiefs 
Association, which New Orleans is a member, represents 70 
million Americans. They support policies that foster trust, 
cooperation between police officers, and immigrant communities 
that we all serve.
    And my third point is that NOPD's policy on immigration 
status will make the city safer. It frees up our officers to 
focus on violent crime. It also allows anyone to report a crime 
or to be a witness or a victim to report a crime. The policy is 
already bearing fruit. On the ground, our commanders are seeing 
better cooperation with immigrant communities.
    Quickly, going back to 2010, we did invite the Justice 
Department in. Their comprehensive investigation showed that we 
had problems in the way that we treated the immigrant 
community. We wanted to fix that.
    Since 2010, we have launched 11 new recruit classes. We 
have written 34 of these types of policies. Forty more are 
being drafted right now. These policies cover canine use, 
prisoner transport, Taser operations, body-worn cameras, to 
name a few.
    Now, going back to March 2015, we started drafting this 
policy with the NOPD, the Federal monitor, and of course, the 
Justice Department. In September, we brought in ICE. We asked 
the experts. They were brought in at both the local and the 
headquarters level. At the time, ICE told us that the policy 
complied with all Federal ICE requirements for law enforcement.
    Then in December, Judge Susie Morgan, who oversees the 
consent decree, also brought in ICE. We had the chief counsel 
from the New Orleans division in our office. No concerns, 
substantive concerns, about the policy were raised at that 
time.
    So, in February of this year, the Federal monitor approved 
the policy. Immediately, there were some concerns about the 
policy, so Mayor Landrieu wrote to DHS and DOJ, the leadership 
there, and said: ``If anyone in any of your agencies, any 
person has a concern about this policy, please contact us.'' It 
wasn't until July that we received a letter back with 
information about 1373 and general compliance there.
    So, when we got that--when we received that information, we 
immediately went to work redrafting the policy with DOJ, and as 
the Chairman noted, last week, the Federal monitor did approve 
the updated policy that we believe fully complies with Federal 
law just as we believe the last policy fully complied with 
Federal law.
    So, simply put, the NOPD's policy on immigration status is 
going to make the city safer, and it follows Federal law. As 
required by the consent decree, we will review our policies 
continuously, and I am happy to take any questions. Thank you.
    [The prepared statement of Mr. Butterworth follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
                               __________
                               
                               
                               
                               
    Mr. Gowdy. Thank you, Mr. Butterworth.
    The Chair will now recognize the gentleman from Virginia 
for his 5 minutes of questioning.
    Mr. Goodlatte. Well, thank you, Mr. Chairman.
    Mr. Butterworth, let me pick right up where you left off. I 
appreciate the work that you have done on this, but under the 
revised policy, the New Orleans Police Department officers are 
prohibited from making inquiries about an individual's 
immigration status, including to ICE, yet section 1373(b) 
authorizes officers to make requests to ICE for such 
information.
    So doesn't the policy violate Federal law, section 1373(b)?
    Mr. Butterworth. Sir, we believe the policy fully complies 
with 1373. If there is anything about the new policy that is 
unclear, we would be happy to go back and take a look.
    Mr. Goodlatte. Why was there a specific reference made to 
1373(a) and 1373(b) was left out of the----
    Mr. Butterworth. I think the focus of the concerns that had 
been raised had been on 1373(a). I think, on behalf of the 
NOPD, we are happy to go back and make sure that there is no 
misunderstanding about 1373(b). I think, as you just heard, 
Ms.----
    Mr. Goodlatte. Are you aware of any concerns on the part of 
the mayor or city officials or the police department chief or 
others about authorizing officers to make inquiries about an 
individual's immigration status?
    Mr. Butterworth. So, as you just heard Ms. Gupta testify, 
this policy allows officers to communicate with ICE. They are 
going to help ICE in any sort of public safety event. They are 
going to help ICE execute criminal warrants. And there is no 
restriction on the communication between an officer and ICE in 
this policy.
    Mr. Goodlatte. Is there any restriction on a police officer 
making a request to ICE for information regarding an 
individual's immigration status?
    Mr. Butterworth. There is no--so the way the policy is laid 
out, if a person--if an officer interacts with a member of the 
public, he or she immediately run that person's name against 
the NCIC database system. If there is a return that there is a 
criminal warrant on that person, the person is immediately 
arrested.
    Mr. Goodlatte. And now you noted in your testimony that the 
New Orleans Police Department takes criminals off the street. 
If you find that they are not lawfully present in the United 
States, what happens after they have been through the judicial 
process in New Orleans?
    Mr. Butterworth. So thank you for allowing me to clarify 
that. New Orleans has a very unique political structure. The 
mayor is elected parishwide, our counties, to lead the NOPD. 
Our sheriff is also elected parishwide, and he leads the 
sheriff's department. So I don't represent the sheriff's 
department, and I apologize that I can't speak on behalf of 
them, but our officers, who arrest someone on a criminal 
warrant, deliver the suspect----
    Mr. Goodlatte. So, assuming that they are prosecuted and 
convicted and incarcerated, not all will be, but those who are, 
after they have served their time, what does the policy of the 
New Orleans Police Department and courts say about 
communications with ICE about the fact that someone is about to 
be released from jail or released from prison who has been 
convicted of a crime and is not lawfully present in the United 
States?
    Mr. Butterworth. So, if a person is convicted of a felony 
in Louisiana, they are likely sent to Angola, which is a State 
corrections facility, and I would defer to the attorney general 
on the operations of the State corrections facility after that.
    Mr. Goodlatte. And what about the New Orleans jails?
    Mr. Butterworth. Again, the sheriff of New Orleans operates 
the jail there, and we have no operational control over the 
sheriff.
    Mr. Goodlatte. Thank you.
    Well, let me turn to the attorney general. Welcome. We are 
glad to have you back with us, Attorney General Landry, and I 
want to start by asking you if you believe, as Louisiana's 
chief law enforcement officer, that the New Orleans consent 
decree violates Federal law.
    Mr. Landry. I believe that, prior to the substantive 
changes that they made, it absolutely violated Federal law. The 
question is whether or not in practice the new changes will 
remedy that situation.
    You know, what we have in the country is basically two 
types of sanctuary city policies. It is either a ``don't ask'' 
policy or ``don't tell.'' What the current New Orleans city--
what the prior policy was, prior to the change, was both, both 
a ``don't ask'' and ``don't tell.'' Now the question is whether 
or not they--they seem to have remedied the ``don't tell'' 
portion of that policy, but it doesn't seem that they have made 
any changes in the ``don't ask'' portion.
    Mr. Goodlatte. And it is your intention to make sure that 
everything within your power to assure that that happens will 
happen so that they are in full compliance with 1373, not just 
one subsection of it.
    Mr. Landry. Absolutely. We are going to try to take it upon 
ourselves to go out and let all law enforcement officers around 
the State know exactly what 1373 states and how they can avoid 
violating that statute.
    Mr. Goodlatte. Thank you. And just, in general, do you 
believe it is inconsistent for a jurisdiction to adopt a 
sanctuary policy that violates Federal law and at the same time 
requests Federal law enforcement grant money?
    Mr. Landry. I do.
    Mr. Goodlatte. And what message does that send concerning 
the rule of law?
    Mr. Landry. Well, again, it sends a terrible one. I think 
that is part of the demise of our criminal justice system and 
the reason that we have an uptick in crime across the country. 
When we allow people to flagrantly violate any law and then we 
just turn a blind eye to it, all that does is lead to those 
people committing additional crimes and thinking it is okay to 
break the law.
    Mr. Goodlatte. Well, thank you very much. And I heard your 
testimony that, with the correction of this, when hopefully it 
will soon be completely corrected, there will be no communities 
in the State of Louisiana that would be characterized as 
sanctuary cities.
    Mr. Landry. Thank you, Mr. Chairman.
    Mr. Goodlatte. Well, thank you. I wish other States had the 
same effort to have such a consistent record.
    And I yield back to the Chairman.
    Mr. Gowdy. The gentleman from Virginia yields back. The 
Chair will now recognize the gentlelady from California, Ms. 
Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Ms. Gupta, I understand that in 2005, the civil rights 
division was involved in investigating New Orleans policy abuse 
and misconduct in the aftermath of Hurricane Katrina. Can you 
talk briefly about the acts of abuse your division uncovered as 
a result of that investigation?
    Ms. Gupta. So we launched our investigation into the New 
Orleans Police Department in 2010 and uncovered very pervasive, 
widespread acts of misconduct related to specifically excessive 
use of force, stop searches, and arrests; discriminatory 
policing, and the like.
    And one of the goals that we had when we had come in at the 
invitation of Mayor Landrieu was to ensure that the New Orleans 
Police Department would be able to carry out its core function 
of providing effective policing and constitutional policing to 
keep all residents of New Orleans safe. And in our 141-page 
findings report, we detailed, after extensive data, interviews, 
a lot of engagement with NOPD officers and command staff as 
well as community members that these violations had thoroughly 
undermined the NOPD's ability to solve and prevent crime in New 
Orleans. And in the years since, since we have enacted this 
consent decree, we have been working collaboratively with the 
city and with the brave men and women of the New Orleans Police 
Department to address these and to finally give New Orleans 
police officers the tools that they need to have the trust of 
all of their residents and to be able to fight violent crime.
    Ms. Lofgren. Thank you.
    We are pleased to be joined today by a Member of the full 
Judiciary Committee, who is not a Member of the Subcommittee, 
and that is Mr. Richmond, who also represents New Orleans, and 
so I would like to yield the remainder of my time to him so 
that he might ask a question since this is his territory.
    Mr. Gowdy. The gentleman from Louisiana is recognized.
    Mr. Richmond. Thank you, Mr. Chairman, and thank you to the 
Ranking Member for allowing me to ask some questions.
    Let me just start with a couple of things here. And in the 
opening testimony of our Chairman, he said that he believed 
that the consent decree between the City of New Orleans and the 
Department of Justice was done through collusion. And I will 
just tell you that as an African-American male who grew up in 
New Orleans who had to deal with the New Orleans Police 
Department, the police department went under consent decree 
because of use of force, failing to investigate it, stop and 
searches without cause, discrimination against African-
Americans, failing to investigate sex crimes against females in 
domestic violence, a paid detail system that invited 
corruption, failing to sufficiently embrace community policing, 
and immigration as one of them. So I just would like to clear 
up for anyone who thinks that, you know, we colluded all of 
that, it is very convenient for a White male from Virginia to 
talk about collusion in a consent decree.
    And Attorney General Landry, let me just applaud you for 
working on sanctuary cities, because you believe it is 
important, but I would ask, can you help our Chairman 
Goodlatte, because he has two sanctuary cities in Virginia, and 
if you are going to start cleaning up, start cleaning up at 
home. And while we go down the list, we have four in South 
Carolina, every parish in Colorado, we have Sioux City in 
Representative King's district, we have Rockwall, Dallas, and 
Travis in Texas. So if we are going to start talking about 
sanctuary cities, don't just pick mine that you would like to 
allege is a sanctuary city; let's talk about all of them, 
especially the people who are on the Committee.
    And the other thing that we talked about was the 
unfortunate death of a fire chief, a very respected and loved 
fire chief in St. John Parish. And I think that incident 
happened because the person fell through the cracks, and that 
is what we should stop, but that has absolutely nothing to do 
with New Orleans. The guy didn't live in New Orleans, he was 
never arrested in New Orleans, the company he worked for was 
not in New Orleans. That has absolutely no connection to the 
city of New Orleans. Now, the company was operated out of St. 
Tammany Parish with an elected official as a co-owner, which I 
think is deplorable, and I think that that we should be looking 
at prosecution for, the owners of the company, but to just 
single out New Orleans as some city that decided all of a 
sudden that we wouldn't enforce the law is just incorrect.
    Zach, Mr. Butterworth, let me just ask you a question. When 
did you all initiate trying to make sure that the city's policy 
was consistent with Federal law?
    Mr. Butterworth. So we began drafting this policy in March 
of 2015 and we began discussions with ICE in September. So 
those have continued on both the local and headquarters level, 
and at no point did anyone at ICE ever say that this policy 
didn't comply with Federal law.
    Mr. Richmond. And Ms. Gupta, at what point is it your 
office's opinion that they did not comply with Federal law? If 
at any time, did they not comply with Federal law?
    Ms. Gupta. The Justice Department believes the policy, even 
in February, complied with Federal law, the revisions that we 
just put into effect were made out of an abundance of caution 
after we received inquiries from officials in Louisiana as well 
as we reviewed our inspector general's memo, and in an 
abundance of caution, to ensure total clarity about the fact 
that the policy must comply with 1373, we literally lifted the 
language of the statute, put it into the policy to make it very 
clear that NOPD officers can share information with ICE 
regarding an immigration status or citizenship status of an 
individual, they can assist in operations in response to direct 
threats to public safety or where there is an independent law 
enforcement reason for doing so, they can assist in executing a 
criminal warrant, they can assist in the enforcement of court 
orders. So the revision was made to ensure total clarity with 
compliance with Federal law.
    Mr. Richmond. So in summary, the old policy and the new 
policy, it is your opinion both were consistent with Federal 
law?
    Ms. Gupta. Yes.
    Mr. Richmond. And, Mr. Horowitz, do you have an opinion on 
that?
    Mr. Horowitz. We ultimately, Congressman, didn't reach a 
final determination as to the legality or not of the issue, 
primarily because of the fact that we needed to get the report 
back to the Department and its request expeditiously. And in 
order to do that, we would really need to be on the ground, go 
to the city, look at some of the issues that have been 
previously--had previously been raised, talk with folks on the 
ground there both from the city and from ICE, and we haven't 
taken those steps and I am not in a position to give a legal 
determination at this point without taking a full effort in 
that regard.
    Mr. Richmond. Thank you. And I will yield back.
    Mr. Gowdy. The gentleman from Louisiana yields back. The 
Chair will now recognize the gentleman from Idaho, Mr. 
Labrador.
    Mr. Labrador. Thank you, Mr. Chairman. Sanctuary city 
policies have transformed some of our greatest American cities. 
I am increasingly frustrated by these policies that are 
consistently implemented in the name of ``unbiased and 
community-based'' policing, as Deputy Attorney General Gupta 
has said.
    The ramifications for public safety and the inability for 
ICE to complete its mission are severe, and not only affect the 
cities, but the surrounding communities are impacted as well. 
While some of the witnesses today, including Deputy Attorney 
General Gupta, would like to ignore this fact, the simple truth 
is that immigration enforcement is a critical function of the 
United States Government and one that must be supported and not 
undermined in this form.
    Much of this debate centers around the practical 
application of 8 USC 1373 and whether a city that has 
implemented sanctuary policies can simultaneously comply with 
this section of law.
    Mr. Horowitz, based on your findings, what do you believe 
that 8 USC 1373 requires of local jurisdictions?
    Mr. Horowitz. In Sections 1373(a) and 1373(b), I will 
combine them for purposes of just mentioning this, it 
essentially prohibits State, local, or Federal law from 
prohibiting or restricting in any way employees of those 
entities from sending to, requesting from, or receiving from 
ICE, information about the immigration status of an individual.
    Mr. Labrador. So what do you make of the fact that Mr. 
Butterworth keeps saying that it complies, but nothing in their 
guidance says that they have the ability to request 
information?
    Mr. Horowitz. The new policy that we also received on 
Friday afternoon and have looked at doesn't reference the word 
``requesting,'' which is in (b)(1) of 1373.
    Mr. Labrador. So it clearly doesn't fully comply. It seems 
to comply with (a), but not with (b).
    Mr. Horowitz. It clearly addresses (a)----
    Mr. Labrador, It clearly addresses (a).
    Mr. Horowitz [continuing]. It doesn't include the word 
``requesting,'' which is in (b). Again, without us 
understanding more, I am not going to be in a position to make 
a legal opinion on whether it complies----
    Mr. Labrador. But it is a simple word.
    Mr. Horowitz [continuing]. Or doesn't, but it omits the 
word ``request.''
    Mr. Labrador. The missed ``request''--the word ``request'' 
is not in the policy, correct?
    Mr. Horowitz. That is correct.
    Mr. Labrador. Okay. And you believe that we may need to 
clarify this section, correct?
    Mr. Horowitz. I think it is an open question. I have gotten 
it--I got it Friday afternoon as well. I would have to do 
follow up, but with the absence of the word ``requesting,'' 
which is in 1373(b) is obviously a reasonable question here.
    Mr. Labrador. Okay. Attorney General Landry, great to have 
you here. Thank you so much for the work that you are doing. Do 
you believe that by implementing these sanctuary policies, New 
Orleans, and in particular NOPD, are promoting public safety?
    Mr. Landry. Implementing the policies of sanctuary----
    Mr. Labrador. Yeah.
    Mr. Landry. Absolutely not. I mean, it is a danger to 
public safety. And what happens is it actually--you know, when 
you have--most of these cities are very large cities and you 
have a very large metropolitan footprint. What happens is it 
draws, it creates a magnet, a draw for illegal aliens as a 
sanctuary area for them to operate. It also creates an 
opportunity for--if you are a member of the drug cartel in 
Mexico, where would you send those people who are plying your 
illegal trade? You would send them into those cities, because 
the ability for those members to be identified is reduced 
because of the sanctuary city policies.
    Mr. Labrador. Is New Orleans a safer city today than before 
implementing these sanctuary policies?
    Mr. Landry. Well, certainly the substantive changes that 
they made on Friday is a step in the right direction. I think 
that going ahead and clarifying it and then actually 
determining whether or not there will be a collaborative effort 
to crack down on illegal immigration, especially those that are 
in custody that NOPD has arrested and identifies them, is yet 
to be seen.
    Mr. Labrador. So as a law enforcement official, as someone 
who has served at both the Federal and State level, what do you 
believe is the appropriate relationship between local or State 
law enforcement and Federal immigration enforcement?
    Mr. Landry. I believe they have to have extreme 
collaboration. I believe that, you know, based upon some of the 
U.S. Supreme Court's holding, that Congress needs to clarify 
exactly how law enforcement agents may engage in those types of 
questioning. And then, of course, implementing 1373 is 
certainly a step in the right direction, making sure that law 
enforcement agents know that they can ask and they can 
communicate with ICE in order to get those violent criminals 
off the street and deportable.
    Mr. Labrador. Thank you. I yield back my time.
    Mr. Gowdy. The gentleman from Idaho yields back. The Chair 
would now recognize the gentleman from Illinois, Mr. Gutierrez.
    Mr. Gutierrez. Thank you. I would like to note that we are 
not having a hearing today about gun violence, 500 people shot 
dead in Chicago, 3,000 this year; we are not having a hearing 
about police killing unarmed civilians; we are not having a 
hearing about the need for immigration reform or detention 
centers; we are not having a hearing about any of the really 
important things. We are having a hearing about a Donald Trump 
talking point that one he goes to again and again, the one he 
says that immigrants are killers, rapists, drug dealers, who 
are here to hurt people, not to build up our country like every 
other immigrant group that has come before them.
    Today we are focusing on one of America's great cities, a 
city with a troubling past when it comes to respecting civil 
rights and building trust between the police and the community 
at large. And so I would think that we would want to work on 
building that trust between the police and the people, and that 
the efforts taken by people to build that trust shouldn't be 
undermined.
    Lastly, I am just going to say, because it doesn't really 
matter, this hearing, it really doesn't. It is going to come 
and go. You guys got somebody to pay for your trips to come 
down here. It is not going to have an impact on anything. We 
are not going to change anything. This is just another 
political hearing.
    But I just want to say that, you know, we could have 
actually spoken to a lot of very important issues that people 
want us to talk about, but it always seems the majority always 
says we should listen to people that are not in Washington, 
D.C., we should listen to local elected officials, that that is 
where democracy is blooming, but it seems like every time you 
guys say anything, they have an objection when they don't like 
it.
    So having said that, I just want to say to my colleague 
from New Orleans, I would like to yield the remaining 3 minutes 
of my time to Mr. Richmond to ask questions.
    Mr. Richmond. Thank you.
    Attorney General Landry, you said that New Orleans' policy 
would invite undocumented immigrants because of its status as a 
sanctuary city. New Orleans' foreign born population is about 6 
percent. Neighboring Jefferson Parish, which is not a sanctuary 
city, is about 11 percent. How do we reconcile that with the 
notion that New Orleans is becoming a safe haven for 
undocumented people?
    Mr. Landry. Let me clarify that. That was a 
misunderstanding, Congressman Richmond. The metropolitan area 
becomes--as a whole, invites illegal immigrants into that 
particular area, because, again, they feel the need, the 
ability to travel freely. Again, when you look at not only the 
actual city that implements the policies, it affects the 
surrounding areas.
    Just last weekend in the Lafayette metropolitan area, we 
had an elderly man get hit head-on by an illegal immigrant, 
who, again, had been arrested multiple times and yet was not 
deportable. So here we have another family losing another loved 
one in an area which had--previously had a sanctuary city 
policy.
    Mr. Richmond. And, look, I don't--you know, we have a great 
working relationship, and I know you are very tough on crime. 
Let me ask about the incident that killed our fire chief. The 
company was owned by a person in Louisiana and a State rep from 
Arkansas. Under Louisiana law, do you have the ability to 
indict the owners of the company for hiring an undocumented 
without a license that was driving when he caused that fatal 
accident?
    Mr. Landry. In Louisiana, I believe the employment of an 
illegal is not a criminal offense, it is a civil matter.
    Mr. Richmond. Well, if it is done in a very negligent 
manner and without--gross negligence, I think we do have some 
criminal statutes under which--let me just ask this, then. If 
we can find some criminal statutes under which to charge the 
owners of the company, who ultimately are at fault for hiring 
an undocumented, would you commit to charging them if the facts 
fit the statute? And I don't mind looking myself.
    Mr. Landry. Yeah, absolutely. You know, Congressman, you 
are right, we have a great working relationship and I certainly 
respect you. And, yes, I intend to uphold the rule of law 
regardless.
    You know, I would also mention that the sanctuary city 
legislation that we put forth in the State house just this year 
passed the State house with large bipartisan support. I think 
everyone is recognizing that this is a public safety debacle 
and that this is a first step in ensuring that our communities 
are safe.
    Mr. Richmond. Thank you. And I would yield back.
    Mr. Gowdy. The gentleman from Louisiana yields back. The 
Chair would now recognize the gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I thank the witnesses 
for your testimony here today. And I would turn first to 
Attorney General Landry, and I would like to--I would like to 
pose a broader concept here and then ask you to comment on 
that, and perhaps we will go a little deeper, and that is that, 
as I read Federal law and immigration law and as I understand 
it after these years on this Committee, it envisions in its 
entirety essentially vacuuming up the illegal people in the 
United States and all of those whom are encountered by law 
enforcement, it anticipates their removal from the United 
States, and it requires that when at least Federal law 
enforcement officers encounter someone who is unlawfully 
present in America, that they shall place them in removal 
proceedings.
    Would you agree so far with my characterization of Federal 
law?
    Mr. Landry. I do. I agree with that.
    Mr. King. And then, so when I look at this, this statute, 
1373, and I read through the details of 1373, shouldn't it be 
clear to anyone who intends to comply with the intent of 
Federal law that they are to help facilitate rather than 
frustrate the intent of Federal law?
    Mr. Landry. I agree. You know, just placing the type of 
language that has been put in the consent decree dealing with 
immigration frustrates the law.
    Mr. King. And I happen to have a little quote here from Mr. 
Richmond in a markup March 18, 2015, which was about the time 
of the inception of this situation. He is concerned about the 
police department and the sheriff's office, who have a Federal 
consent decree, and that they can comply with--this is a quote, 
``They are complying with a Federal consent decree, and now it 
will cause the City of New Orleans to lose valuable Federal 
money in terms of DHS and FEMA funds.'' I think it has been 
known that there has been a clear violation here of at least 
the intent of the consent decree--or excuse me, the intent of 
1373 by the consent decree and the underlying policy, which is 
a sanctuary city policy, by my reading of it.
    Have you had any discussions or have you examined the legal 
language of this in such a way that you are aware of any 
loopholes that are being exploited in this process that seems 
to be a collaboration between DOJ and the City of New Orleans?
    Mr. Landry. Well, again, it is concerning that the 
Department of Justice would go in and basically insert this 
type of language in a consent decree that had nothing to do 
with immigration or illegal immigration policies or enforcement 
of that by local law enforcement in the city. Again, I think 
that that language frustrates the entire consent decree.
    Mr. King. Would Fire Chief Spencer Chauvin be alive today 
if we had enforced our immigration laws as intended by this 
Congress?
    Mr. Landry. That is correct--I--absolutely. In fact, you 
can make an argument that everyone who has been a victim or 
lost a loved one to someone who has been in this country 
illegally has lost that loved one simply because we fail to 
enforce existing law.
    Mr. King. Would you disagree with the statement made by 
Donald Trump several weeks ago that there are thousands of 
Americans that are grieving today because of the loss of a 
family member, a loved one due to the failure to enforce 
immigration law in the United States?
    Mr. Landry. I do. I agree with that.
    Mr. King. And I would say also, reinforce that, it is 
thousands. And we have had difficulty in getting apples to 
apples in two GAO studies. Thank you, Attorney General Landry.
    And I would turn to Inspector General Horowitz and just ask 
you this for clarification. As I listen to your testimony and I 
read through your testimony, it doesn't come real clear to me 
as to your position on whether you believe that the sanctuary 
policy of New Orleans violates 1373.
    Mr. Horowitz. We looked at the policy that preexisted 
Friday and found they had a savings clause in their provision, 
meaning that if--that employees could comply if required to do 
so by Federal or State law. Our concern was how was that being 
interpreted and used, because Section 1373 doesn't require 
anything. It simply prevents state and local jurisdictions and 
Federal jurisdictions from preventing employees from contacting 
or responding to ICE----
    Mr. King. Did this policy prevent them from gathering or 
inquiring as to immigration status?
    Mr. Horowitz. Parts of the--other parts of the policy did 
address that.
    Mr. King. And that seems to be the loophole that we have 
identified over some years here that is exploited by the local 
jurisdictions.
    As my clock ticks down, I would like to, then, ask Ms. 
Gupta, as you spoke about this, is there any Federal law or any 
statute that you are aware of that prohibits law enforcement 
from profiling when they exercise their job?
    Ms. Gupta. Congressman, let me just make one thing clear, 
if I could, that there is nothing in the NOPD policy that 
prevents officers from requesting----
    Mr. King. But my question is are you aware of any law or 
any statute that prohibits profiling in the enforcement of law?
    Ms. Gupta. Yes, there are. The Constitution obviously 
prevents the racial profiling in the exercise of----
    Mr. King. You mean to say that if there happens to be a 
white-haired, light-skinned, blue-eyed person that has 
committed a crime and you are on the hunt for them, you can't 
say that?
    Ms. Gupta. Where there is a direct and articulated reason, 
reasonable suspicion, probable cause, these are the----
    Mr. King. Can you characterize the appearance of a suspect 
in the enforcement of the law?
    Mr. Gowdy. The gentleman is out of time, but you may--you 
may answer.
    Ms. Gupta. Sure. Well, it is against the law to engage in 
discriminatory policing where----
    Mr. King. Mr. Chairman, I would ask unanimous consent to 
press this witness until she answers my question. She is 
evasive in her responses.
    Ms. Jackson Lee. Objection.
    Mr. Gowdy. Well----
    Ms. Jackson Lee. The witness has been asked and she has 
answered.
    Mr. King. She has not answered.
    Ms. Jackson Lee. She has answered the question.
    Mr. King. I would ask unanimous consent for an additional 
minute.
    Ms. Jackson Lee. Mr. Chairman----
    Mr. Gowdy. Well----
    Ms. Jackson Lee [continuing]. She has been asked and she 
has answered.
    Mr. Gowdy. If the gentlelady from Texas would yield, I will 
address the matter, but----
    Ms. Jackson Lee. I will be happy to yield, sir.
    Mr. Gowdy [continuing]. But it is hard for me to interrupt 
you and do so.
    Does the witness feel like she has answered the question as 
adequately as she is able to do so?
    Ms. Gupta. I do. I am happy to finish the sentence or to 
yield.
    Mr. Gowdy. No. You are welcome to finish the sentence.
    Ms. Gupta. Thank you. Yes, it is illegal and against the 
law to engage in discriminatory policing, to take policing 
decisions solely on the basis of one's race or other kind of 
protected characteristic, yes.
    Mr. Gowdy. If the gentleman from Iowa has additional 
questions, we can entertain a second round.
    Mr. King. I thank the Chairman. And I would just point out 
that I don't believe I did get an answer to my specific 
question, but I think it is obvious to the members of the 
panel. And I would yield back.
    Mr. Gowdy. The gentleman from Iowa yields back. The Chair 
would now recognize the gentlelady from Texas.
    Ms. Jackson Lee. I thank the Chairman very much. And I do 
want to express my appreciation when any witness comes to share 
with this lawmaking body, because we should be problem solvers, 
so let me thank all of you.
    I might say that I would join with the comments of my 
colleagues, that are here on this side of the aisle, and 
particularly my colleague from New Orleans for his pointed and 
very responsive questioning, but we should be doing criminal 
justice reform that I hope that we will do, we should be doing 
immigration reform, comprehensive immigration reform. And there 
is a point to the fact that there are cities around the Nation 
that may need, as you said, Mr. Horowitz, the clarification 
that I think your pointed inspector general's report has 
offered us, and I think that is a solution.
    So let me first of all ask Ms. Gupta--and thank you again 
for your service, I don't know where we would be if we did not 
have the civil rights division, and I thank you so very much. 
Have you made any pronouncement that New Orleans or any city in 
the State of Louisiana at this time is not eligible for Federal 
grants?
    Ms. Gupta. We have not.
    Ms. Jackson Lee. You have made no public statement. Let me 
read very quickly into the record the genesis of the civil 
rights division coming to New Orleans. This was a request by 
Mayor Mitch Landrieu, a request of the U.S. Department of 
Justice to conduct an investigation. His quote is that, nothing 
short of complete transformation is necessary and essential to 
ensure safety for the citizens of New Orleans.
    I believe that you are interested in the overall security 
and safety of all citizens or all individuals in New Orleans. 
That was the request made by the mayor? Is that my 
understanding?
    Ms. Gupta. That is right.
    Ms. Jackson Lee. And the representative of the mayor, is 
that my understanding?
    Mr. Butterworth. That is correct.
    Ms. Jackson Lee. Thank you. I understand that you were 
looking at the use of excessive force; unconstitutional stop, 
searches, and arrests; biased policing, including racial and 
ethnic profiling; and systemic failure to provide effective 
policing services and systemic failure to investigate sexual 
assaults and domestic violence. Do you recall that, Ms. Gupta?
    Ms. Gupta. That is right.
    Ms. Jackson Lee. You were overall dealing with the overall 
civil rights of that community.
    So the inspector general offered three points that would 
help in Section 1373, the clarification, I believe, the--the 
requiring grant applicants to provide certification about their 
interaction with ICE, and then ensuring grant recipients 
clearly communicate to their personnel about 1373.
    Do you have any opposition to that?
    Ms. Gupta. No.
    Ms. Jackson Lee. And would you be in compliance or intend 
to give some guidance to that section?
    Ms. Gupta. Yes. The reason why we made the revisions most 
recently was to clarify very clearly that the policy complies 
with 1373, that ICE officer--that NOPD officers can share 
information regarding the immigration status of an individual 
with ICE, that there is nothing in NOPD policy that prevents 
officers from requesting immigration status from ICE as well.
    Ms. Jackson Lee. I just want to be very clear that there is 
no--there is no ban right now that you have offered and that 
you are not trying to block. Let me quickly ask this question. 
I would like to yield to my colleague from New Orleans. Can you 
tell me if the sentiment expressed by chief manager and the 
policy of the Major Cities Chiefs Association, in particular, 
people like Tom Manger, that policies like the one in New 
Orleans will enhance public safety? Is that something you have 
heard for other law enforcement agencies, Ms. Gupta?
    Ms. Gupta. Yes. Thank you for the question, Congresswoman. 
We have heard this from a number of leading law enforcement 
leaders, but also I think very importantly, the reason why this 
policy was undertaken was to help the NOPD fight violent crime. 
When we--in the course of conducting our investigation in New 
Orleans, we heard from any number of victims and witnesses who 
were afraid or refusing to cooperate with the NOPD who had 
critical vital information about crime, and that it was 
undermining the NOPD's ability to solve and prevent violent 
crime in those communities.
    Ms. Jackson Lee. Thank you so very much. I am happy to 
yield to my distinguished colleague from New Orleans, Mr.----
    Mr. Gowdy. The gentleman from Louisiana is recognized for 
36 minutes--36 seconds.
    Mr. Richmond. Let me just quickly put the quote that--the 
great quote that I made in context. It had nothing to do with 
immigration that Representative King talked about. That quote 
was because New Orleans was under a Federal consent decree, 
both the police department and the sheriff's department, and it 
was costing us over $50 million a year, which was preventing us 
from making the jail or the police department constitutional.
    But since Representative King brought it up, let me just 
ask you very quickly, Jeff--well, Attorney General Landry, can 
you please coordinate with the attorney general from Iowa to 
help them with their 23 sanctuary counties that they have in 
Iowa, and maybe you can coordinate? Are you willing to 
coordinate with Representative King to help him with his 23?
    Mr. Landry. I would be glad to put on a workshop in all 49 
other States.
    Mr. Richmond. Thank you. With that, I yield back.
    Ms. Jackson Lee. Mr. Chairman, I have a submission. I would 
ask unanimous consent if I might put into the record the 
following documents: a statement from 11 national civil and 
immigrant rates--excuse me--rights organizations; statement 
from the National Immigration Project of the National Lawyers 
Guild; statement from the National Immigration Forum; statement 
from Church World Services; statement from 20 law professors, 
led by Christopher Last; a statement from 17 New Orleans-based 
community organizations; and a statement from the Law 
Enforcement Immigration Task Force. I ask unanimous consent to 
submit these documents into the record.
    Mr. Gowdy. Without objection.*
---------------------------------------------------------------------------
    *Note: The submitted material is not printed in this hearing record 
but is on file with the Subcommittee, and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105392
    Ms. Jackson Lee. Thank you. I thank----
    Mr. Gowdy. The Chair will now----
    Ms. Jackson Lee. I thank the witnesses. I thank you, Mr. 
Chairman.
    Mr. Gowdy. The Chair will now recognize the gentleman from 
Colorado, former United States Attorney, Mr. Buck.
    Mr. Buck. Thank you, Mr. Chairman.
    Mr. Landry, have you ever prosecuted a case?
    Mr. Landry. Sir?
    Mr. Buck. Have you ever prosecuted a case?
    Mr. Landry. A criminal case?
    Mr. Buck. Yes.
    Mr. Landry. Not since being--not until being attorney 
general.
    Mr. Buck. Does your office prosecute cases?
    Mr. Landry. We do.
    Mr. Buck. Mr. Horowitz, did you ever prosecute a case?
    Mr. Horowitz. I did.
    Mr. Buck. Ms. Gupta, have you ever prosecuted a case?
    Ms. Gupta. My office prosecutes cases, yes.
    Mr. Buck. Okay. And, Mr. Landry, who is your client?
    Mr. Landry. The State of Louisiana.
    Mr. Buck. The people of the State of the Louisiana?
    Mr. Landry. That is correct, yes, sir.
    Mr. Buck. Mr. Horowitz, when you prosecuted cases, who was 
your client?
    Mr. Horowitz. The people of the United States.
    Mr. Buck. And, Ms. Gupta, when you prosecuted cases, who 
was your client?
    Ms. Gupta. People of the United States.
    Mr. Buck. Okay. In your opening, Ms. Gupta, you say, police 
officers--this is the top of page 4 in your written submission, 
police officers cannot solve crimes and therefore cannot help 
victims prosecute criminals or help Federal law enforcement 
deport violent criminals if victims and witnesses feel afraid 
to share information.
    Mr. Landry, why would a victim or witness feel afraid to 
share information?
    Mr. Landry. Only because they would be afraid of the 
suspect.
    Mr. Buck. Okay. Well, how about if they are in this country 
illegally and they share information and they are asked about 
their status in this country, would they feel afraid to share 
information perhaps for that reason? They could be deported or 
held if they were in the country illegally when they reported a 
case?
    Mr. Landry. I believe if a person is victimized, they would 
be--they would report it regardless of that, but we have seen--
look, as a former law enforcement officer, I have seen many 
communities, especially when you get into the poorer 
communities, that they are suspect of law enforcement 
altogether, regardless of their immigration status.
    Mr. Buck. Okay. Mr. Horowitz, could someone feel afraid to 
report a crime because they, in fact, are committing a crime 
themselves?
    Mr. Horowitz. It has been a while since I prosecuted a 
case, but you could certainly see that being a concern of 
people.
    Mr. Buck. Okay. Well, let's go further, because it has been 
a while since I prosecuted a case also, so let's dig deep into 
the recess of our memory here.
    Mr. Horowitz, let me ask you something. Is it an allowable 
part of cross-examination to ask a victim or witness a question 
that would determine their motive for testifying or reporting a 
crime?
    Mr. Horowitz. It is, and obviously depends on the judge's 
ruling as to the scope of that.
    Mr. Buck. Okay. But your interpretation of law is--the 
rules of evidence in a broad sense, that would be allowed----
    Mr. Horowitz. Correct.
    Mr. Buck [continuing]. To question about motive? How about 
veracity?
    Mr. Horowitz. That would also be allowed, again, to the 
extent and scope that the judge allowed it.
    Mr. Buck. Okay. And so if somebody were to report a crime 
and yet they had committed a crime or they had a motive, for 
example, a U Visa, if they wanted to stay in the country--you 
understand what U Visas are. It allows a prosecutor to apply to 
immigration authorities to allow someone to stay in this 
country if they are a victim or witness of a crime. It would be 
fair to inquire of that person whether they had committed a 
crime themselves by being in the country illegally in order to 
get a full picture about the prosecutory merits of a case, 
would it not?
    Mr. Horowitz. Presumably, but, again, I think it would be, 
depending on the facts and circumstances, up to the judge 
ultimately.
    Mr. Buck. Okay. So, Mr. Landry, let me ask you something. 
When the Department of Justice, the civil rights division, 
decides that they are going to protect one group of individuals 
who are committing crimes in this country and make sure that we 
are not prosecuting another group of individuals, are they in 
fact choosing which type of criminal they want prosecuted in 
Louisiana, in New Orleans?
    Mr. Landry. That is correct. That is exactly. We are 
choosing between which laws we will follow and which laws we 
will allow to be broken.
    Mr. Buck. And why would someone do that, politically? What 
is the political advantage of doing something like that?
    Mr. Landry. You would have to ask them. I wouldn't engage 
in that type of activity.
    Mr. Buck. No, you wouldn't, because it is unethical, isn't 
it?
    Mr. Landry. That is correct.
    Mr. Buck. If you believe that you are, in fact, not 
enforcing the laws, or if you enter into a consent decree and 
you are not representing your client, the people of the United 
States, the people who are being victimized, that would be 
unethical conduct, would it not?
    Mr. Landry. That--it would be.
    Mr. Buck. Mr. Horowitz, do you agree with that?
    Mr. Horowitz. Depending on the facts and circumstances, 
yes.
    Mr. Buck. Okay. I yield back.
    Mr. Gowdy. The gentleman from Colorado yields back. The 
Chair would now yield to the gentleman from Texas, the former 
U.S. Attorney, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman, for holding this 
hearing, but I have to confess that I am more than just a 
little bit embarrassed that the American people have to see a 
congressional hearing dealing with the absurdity of the subject 
matter that we are dealing with today.
    Right now, Mr. Chairman, at schools across America, we are 
hopefully teaching our kids about the Constitution. And with 
all due respect to my colleagues across the aisle, who keep 
saying that we are hypocritical for asserting that the Federal 
Government has a role here, I hope we are doing a better job of 
teaching our kids about the Constitution than we apparently did 
in teaching some of our colleagues. Because the very first 
sentence of the Constitution in the preamble is where kids 
learn that the primary role, the primary role of the Federal 
Government is to provide for the common defense, and the 
single-most important part of that is ensuring the sovereignty 
and integrity of our territorial borders.
    Mr. Chairman, that is the reason that we have a Federal 
Government, that is the one thing that the Federal Government 
is supposed to do, that is the business the Federal Government 
is supposed to be in. It is not supposed to be mandating 
healthcare decisions for Americans, it is not supposed to be 
interfering with teachers and parents in decisions about kids' 
education. We have a Federal Government to protect Americans 
against people from outside our borders who might cause us 
harm, to protect Americans like Kate Steinle in San Francisco 
and Spencer Chauvin and Jermaine Starr in Louisiana, and Peter 
Hacking and Grayson Hacking and Ellie Bryant in my district in 
northeast Texas, all of whom were killed by illegal aliens who 
violated the sovereignty and integrity of our territorial 
borders to come to this country. And, tragically, these are 
just five of the countless victims killed by illegal aliens 
every year.
    So, Mr. Chairman, if that is the primary role of our 
Federal Government, if that is why we have a Federal 
Government, are we really having a hearing about the fact that 
instead of enforcing our Federal immigration laws, the Federal 
Government is doing the exact opposite and, as General Landry 
testified, is actually coercing cities into not complying with 
Federal immigration laws? And then to add insult to injury, the 
American people tuning in to this hearing today see that the 
very same Department of Justice that is tying the hands of law 
enforcement in places like New Orleans turns around and rewards 
so-called sanctuary cities by handing out Federal funds even 
though the conditions for those Federal funds is that the 
recipients abide by Federal law?
    And did I really hear correctly that two-thirds of all 
Federal money going to law enforcement is going to ten 
jurisdictions that refuse to comply with Federal immigration 
laws and that harbor the most violent, violent criminal aliens 
and refuse to cooperate with the Federal Government to deport 
them? That, Mr. Chairman, is as shocking as it is shameful.
    General Landry, you obviously share my frustration. It is 
why you wrote to Attorney General Loretta Lynch and asked her 
whether the Department of Justice, at the same time that they 
were enthusiastically approving and supporting the New Orleans 
Police Department policy, was actually also requiring the City 
of New Orleans to adopt that sanctuary city's policy as part of 
the consent decree. Did Attorney General Lynch respond to you?
    Mr. Landry. She finally did respond to me some months later 
with basically a nonanswer.
    Mr. Ratcliffe. Well, if it makes you feel any better, at 
least she responded to you. I have written her a lot of 
letters, and she hasn't responded to any of mine, but we have 
Ms. Gupta here.
    Ms. Gupta, you have heard from Mr. Landry, and I have heard 
the exchange between you and Mr. Butterworth and Mr. Richmond 
about really trying to clear up the record here with respect to 
the fact that this policy is and always was in compliance with 
Federal law, but as has been pointed out, the record really 
underscores that it hasn't been, and that is why Congressman 
Richmond last year in the markup sought to remove that 
provision to prohibit sanctuary cities from receiving Federal 
law enforcement grants because of his stated belief that New 
Orleans would be barred from receiving grants because of 
immigration provisions in the consent decree.
    Ms. Gupta, given that there are legitimate concerns in the 
NO--in the New Orleans policy by folks here, did you seek a 
judicial review of the policy by District Court to determine 
whether or not it complied with Section 1373?
    Ms. Gupta. The District Court at both points, both in 
February and in issuing this revised policy, had reviewed the 
policies. Yes.
    Mr. Ratcliffe. Well, my time has expired, but since the 
attorney general doesn't respond to any of my letters, Ms. 
Gupta, I wonder if you might carry a message to her, and that 
message would be on behalf of my constituents and millions of 
Americans, that if she really believes in enforcing the rule of 
law, then I think she ought to be prosecuting jurisdictions 
that violate Federal immigration policy instead of writing them 
checks.
    And with that, I yield back, Mr. Chairman.
    Mr. Gowdy. The----
    Ms. Jackson Lee. Mr. Chairman----
    Mr. Gowdy [continuing]. Gentleman from Texas yields back. 
The Chair will now recognize himself.
    Mr. Butterworth, what is the penalty for crossing a border 
unlawfully?
    Mr. Butterworth. I would defer to the Department of Justice 
on any Federal----
    Mr. Gowdy. Well, let's try it this way. Who has exclusive 
jurisdiction over immigration cases?
    Mr. Butterworth. Again, it is outside of my lane, but I 
would say it is CBP or ICE.
    Mr. Gowdy. So it would be Federal. It is exclusively 
Federal----
    Mr. Butterworth. Yes, sir.
    Mr. Gowdy [continuing]. Both--and they are really--unless 
you can think of something I can't think of, it is either 
crossing a border unlawfully or overstaying a visa would be 
about the only ways you could get in the country unlawfully, 
only two ways I can think of.
    You either cross one of our territorial boundaries or you 
are invited in and you overstay your visa. And those are both 
exclusively Federal, but I think you will agree with me that 
almost all of our interactions in life are with State and local 
law enforcement. It is not an FBI agent who stops us for 
speeding. It is not an ATF agent who is working the bar scene. 
So if most of our citizen police encounters are State and 
local, and yet immigration is exclusively Federal, how are the 
Federal officers supposed to know about folks who are not here 
lawfully.
    Mr. Butterworth. Sir, the Department of Homeland Security 
has the PEP program, which I am not at liberty to speak on, but 
I would say if Congress passed a law that commandeered every 
local police officer and wanted to pay for that, then I think 
we would welcome it.
    Mr. Gowdy. When you saw--well, commandeer is such a 
pejorative word. How about we just say cooperate? I mean, you 
don't commandeer people for your terrorism task forces, do you? 
You don't commandeer people for your narcotics task forces, do 
you? It is called cooperation.
    And yet you have a policy that says that New Orleans Police 
Department members shall not make inquiries into an 
individual's immigration status. What do mean by ``inquiries''?
    Mr. Butterworth. Sir, if there is a criminal in New Orleans 
and an officer interacts with that person and there is a 
criminal warrant, that person will be----
    Mr. Gowdy. See, I don't know what you mean by ``criminal.'' 
You mean if the person has--if there is probable cause to 
believe that an offense was committed or if there is already an 
outstanding warrant?
    Mr. Butterworth. If there is a State, Federal, or local 
warrant----
    Mr. Gowdy. Well----
    Mr. Butterworth [continuing]. Or probable cause that an 
officer observed conduct that is criminal, they will arrest the 
person.
    Mr. Gowdy. All right. And then they can inquire as to the 
person's status?
    Mr. Butterworth. Our officers under this policy do not 
inquire about a person's immigration status.
    Mr. Gowdy. They can or cannot?
    Mr. Butterworth. Under this policy, they do not inquire 
about a person's immigration status.
    Mr. Gowdy. Why not?
    Mr. Butterworth. Because we believe that, one, this follows 
Federal law, and two----
    Mr. Gowdy. How are the Federal law enforcement officers 
supposed to know who is here unlawfully if your officers don't 
inquire? They are not the ones that are interacting with them. 
They are not enforcing traffic laws. They don't respond to 
domestic violence calls. The FBI doesn't have jurisdiction over 
that; that would be your State and local officers. So how is 
that supposed to happen?
    Mr. Butterworth. Sir, I think your concerns are with the 
broader system and not with this policy. In New Orleans, we 
arrest every criminal that we interact with. We bring them to 
the jail.
    Mr. Gowdy. I love the way you phrase that. You arrest every 
criminal you interact with. They are only a criminal after they 
have had a jury trial, Mr. Butterworth. They are a suspect up 
until that point.
    Mr. Butterworth. Correct.
    Mr. Gowdy. Mr. Horowitz, if their original policy was okay, 
why did they revise it
    Mr. Horowitz. I don't know the answer to that question, Mr. 
Chairman. You would have to ask the civil rights division.
    Mr. Gowdy. Well, you are a good lawyer, Mr. Horowitz. If 
the original contract was fine, you usually don't draft another 
one, unless you just love paying lawyers. I mean, if your 
original indictment was okay, did you have a superseding 
indictment?
    Mr. Horowitz. Generally not.
    Mr. Gowdy. No, you don't. So if the original policy is 
fine, why did we get this brand-new policy?
    Mr. Horowitz. Well, obviously our memorandum outlining the 
concerns we had about the provision that then existed may well 
have triggered the revisions.
    Mr. Gowdy. I hate to be cynical, but I think you are right.
    Ms. Gupta, you said you were a prosecutor. There was a 
question I got way back in time that I never really had a good 
answer for. Whenever a family member who had lost a loved one 
to an act of violence to someone who was out on bond would ask 
me, why was that person out of jail? I never really had a good 
answer. I mean, you can cite the Constitution that you are 
legally entitled to bond absent some circumstances, but that is 
kind of a hollow explanation.
    So what would the explanation be to those who have lost 
loved ones to violent crime from people who are here unlawfully 
and the Federal Government knows it?
    Ms. Gupta. There is, for somebody who has been accused of a 
violent crime, the NOPD is absolutely entitled in its authority 
to prosecute to the law to the fullest. And there is nothing in 
this policy----
    Mr. Gowdy. No, no, no. You are either missing my point 
inadvertently or you are missing my point intentionally. I 
realize you prosecute people after the homicide. I am trying to 
figure out how to prevent the homicide. What is the explanation 
for why the person wasn't dealt with before the murder?
    Ms. Gupta. But, let me just again make clear that the 
reason we undertook the policy was to ensure that NOPD could 
fight violent crime could get the kind of critical information 
from victims and witnesses who need to share critical crime 
information with the NOPD in order to solve and prevent violent 
crime and----
    Mr. Gowdy. Well, Ms. Gupta, you and I both know that we 
rely on all sorts of witnesses, some of whom, frankly, expose 
themselves to criminal liability in the process of cooperating. 
So the notion that you have to give amnesty to people before 
they will cooperate with law enforcement has not been my 
experience.
    But, Attorney General Landry, I am out of time. You asked 
the question. How do you answer it when family members ask you, 
why was this person not dealt with before they committed the 
act of violence? I never really had a good answer to that one.
    Mr. Landry. Unfortunately, I have had to answer that 
question in Louisiana here lately, and the best way I answer 
them is that our system in this country is broken.
    Mr. Gowdy. With that, I would thank all the witnesses----
    Ms. Jackson Lee. Mr. Chairman, can I ask unanimous consent 
for 1 minute, please?
    Mr. Gowdy. Well, if the gentlelady from Texas does it, then 
I am sure the gentleman from Texas and the gentleman from 
Colorado or going to want to do it too.
    Ms. Jackson Lee. Well, let me be very brief, Mr. Chairman.
    Mr. Gowdy. Okay. You can have a minute.
    Ms. Jackson Lee. Thank you so very. First of all, I want to 
make it very clear that I don't think there is one Member here 
who does not feel the deep pain for the families who have lost 
loved ones, particularly those who died in the terrible crash 
trying to help others during the Baton Rouge disaster and 
flooding. I am from Texas, and I feel for my brothers and 
sisters in Louisiana and I was there for them in Katrina, so my 
deepest sympathies.
    I do want to make sure, however, General Landry, you are 
not asking for New Orleans to be prevented from getting Federal 
funds. Is that correct? You are not asking us to block New 
Orleans from getting Federal funds?
    Mr. Landry. I am asking New Orleans to follow Federal law, 
like I would ask----
    Ms. Jackson Lee. Right. But you are not asking----
    Mr. Landry [continuing]. All of the citizens of New 
Orleans.
    Ms. Jackson Lee. I understand, but you are not asking for 
there to be a declaration for New Orleans not to receive 
Federal funds from the Department of Justice?
    Mr. Landry. No. I have been asking for the State to 
withholds funds from New Orleans for violating Federal law.
    Ms. Jackson Lee. Okay. But let me ask Ms. Gupta. Is New 
Orleans violating Federal law?
    Ms. Gupta. No. New Orleans under this policy, the policy 
does not violate Federal law. And right now we are working with 
the City of New Orleans to ensure constitutional policing.
    Ms. Jackson Lee. That they are communicating with ICE and 
you are not blocking that, because that is what I want to make 
sure is happening.
    Ms. Gupta. That is right. The policy makes clear that NOPD 
can communicate with ICE and request information from ICE about 
a person's immigration status and citizenship.
    Ms. Jackson Lee. And deal with criminal----
    Mr. Gowdy. The gentlelady's time has expired.
    Ms. Jackson Lee. Thank you so very much for your service, 
all of you. Thank you.
    Mr. Gowdy. With that, I would thank all four of our 
witnesses.
    Members are advised they will have 5 legislative days to 
submit additional materials to the record.
    With that, I thank you again to the four witnesses. And we 
are adjourned.
    [Whereupon, at 12:08 p.m., the Subcommittee was adjourned.]

                                 [all]
</pre></body></html>
